                     SEMIANNUAL
                         REPORT




 OFFICE OF INSPECTOR GENERAL
         OPERATIONS
                  and
CPB AUDIT RESOLUTION ACTIVITIES




    April 1, 2013 — September 30, 2013
                        Index of IG Act Reporting Requirements
          IG Act
       Reference                              OIG Reporting Requirements                            Page
     Section 4(a)(2)    Review of Legislation and Regulations                                        NA
     Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                               4-7
     Section 5(a)(2)    Recommendations With Respect to Significant Problems, Abuses, and
                        Deficiencies                                                                4-7
     Section 5(a)(3)    Prior Significant Recommendations Not Yet Completed                         NA
     Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                 NA
     Section 5(a)(5)    Summary of Instances Where Information Was Refused or Not Provided          NA
     Section 5(a)(6)    List of Audit and Inspection Reports Issued                                  3
     Section 5(a)(7)    Summary of Each Significant Report                                          4-7
     Section 5(a)(8)b   Statistical Table Showing the Number of Audit Reports and Dollar Value of
                        Questioned Costs                                                             3
     Section 5(a)(9)    Statistical Table Showing the Number of Audit Reports and Dollar Value of
                        Recommendations that Funds Be Put To Better Use                              3
     Section 5(a)(10)   Summary of Audit Reports Issued Before the Start of the Reporting Period
                        for Which No Management Decision Has Been Made by the End of the
                        Reporting Period                                                            NA
     Section 5(a)(11)   Description and Explanation of Reasons for any Significant Revised Deci-
                        sions by Management During the Reporting Period                             NA
     Section 5(a)(12)   Information Concerning Significant Decisions by Management With
                        Which the Inspector General is in Disagreement                              NA
     Section 5(a)(14)   Information Regarding Peer Reviews Involving the Office of Inspector
                        General                                                                      7
                                       CPB Management Reporting Requirements
     Section 5(b)(2)    Statistical Table Showing the Total Number of Audit Reports and Results
                        From Disallowed Costs                                                        12
     Section 5(b)(3)    Statistical Table Showing the Total Number of Audit Reports and Results
                        From Recommendations that Funds Be Put To Better Use Agreed to in a
                        Management Decision                                                          12
     Section 5(b)(4)    Summary of Audit Reports Where Final Action Has Not Been Completed
                        Within One Year of a Management Decision                                    13-14




b                                                                   APRIL 1, 2013 — SEPTEMBER 30, 2013
                                        FOREWORD
          Congress created the Corporation for Public Broadcasting (CPB) in 1967 as a private
          nonprofit corporation chartered in the District of Columbia to promote noncommer-
          cial public telecommunications and to help keep public media free from any federal
          government interference beyond that mandated in the legislation. Congress estab-
          lished a nine-member Board of Directors (Board) to govern CPB, set policy, and
          establish programming priorities.

          CPB is the largest single source of Federal funding for public television and radio pro-
          gramming, providing financial support and a variety of services to more than 1,400
          public television and radio stations, helping them serve their communities, and en-
          suring that they can exchange program materials through a national interconnection
          system. In addition, CPB supports diverse and innovative programs through grants
          to produce new programs for public media. These activities help provide universal
          access to the public broadcasting system.

          CPB receives nearly all of its funding from Congress. Funds are appropriated two
          years before the fiscal year (FY) they are to be spent to provide stability for the plan-
          ning and funding of long-term programs and projects. For FY 2013, CPB received
          $421.9 million for the general Federal appropriation after consideration of the 0.2
          percent rescission and the 5.0 percent reduction resulting from sequestration. CPB
          must spend at least 95 percent of its general Federal appropriation on grants/contracts
          to television and radio stations, producers of programs, and educational services, as
          well as, for general system support. The balance of the general Federal appropriation,
          up to five percent, may be expended for internal CPB operations. Additionally, CPB
          received a $14.7 million U.S. Department of Education Ready To Learn grant in FY
          2013.

          In 1988, Congress enacted amendments to the Inspector General Act (IG Act) re-
          quiring that CPB have an Office of Inspector General (OIG). CPB’s OIG is an in-
          dependent component of CPB, reporting to the Board through its Audit and Finance
          Committee. The IG Act requires that the Inspector General and the head of the CPB
          each report semiannually to Congress and the public regarding OIG operations and
          activities. Since CPB is a small organization, we have combined these separate re-
          porting requirements into this joint report. The OIG’s report section is titled “Of-
          fice of Inspector General Operations,” and CPB’s report section is titled “CPB Audit
          Resolution Activities.”




Semiannual Report                                                                                    i
                                   TABLE OF CONTENTS

      FOREWORD  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


      OFFICE OF INSPECTOR GENERAL OPERATIONS . . . . . . . . . . . . . . . . . 1


      	         MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . 2


      	         OIG OPERATIONS IN THE CURRENT PERIOD . . . . . . . . . . . . . . 3


      	         AUDIT & ASSISTANCE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . 4


      	         INVESTIGATIVE ACTIVITIES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


      CPB AUDIT RESOLUTION ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . 10


      	MESSAGE FROM CHIEF FINANCIAL OFFICER
         AND TREASURER  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


      	         RECOVERING DISALLOWED COSTS . . . . . . . . . . . . . . . . . . . . . 12


      	         RECOVERING FUNDS PUT TO BETTER USE . . . . . . . . . . . . . . 12


      	CORRECTIVE ACTIONS NOT COMPLETED WITHIN
          ONE YEAR OF A MANAGEMENT DECISION . . . . . . . . . . . . 13




ii                                                                       APRIL 1, 2013 — SEPTEMBER 30, 2013
    OFFICE OF INSPECTOR GENERAL OPERATIONS




Semiannual Report                           1
     Message from the Inspector General
     September 30, 2013

     I am pleased to present my first Semiannual Report to Congress since assuming the position
     of Inspector General in June 2013. While the OIG has its smallest staff ever (8.5 full time
     equivalents) due to the impact of sequestration on the CPB budget, we nonetheless have
     accomplished a good body of work in this reporting period. In this report, you will find
     summaries of the four audits we completed, two of production entities and two of stations.

     We also were subject to a peer review this period. Pursuant to governing professional
     standards and the procedures of the Counsel of the Inspectors General on Integrity and
     Efficiency (CIGIE), auditors from the Library of Congress Office of Inspector General
     reviewed our audit policies and procedures and tested three audits. I am very pleased to
     report that we received the highest level of assurance an audit organization can receive,
     a pass. In my four months here, we also completed a number of planning activities. We
     adopted a new strategic plan, OIG Strategic Plan for FY 2014-18, which sets out our vision,
     mission, core values, goals, and strategies for reaching those goals. Our vision and mission
     are based on the IG Act’s focus on accountability and its mandate to conduct audits and
     investigations to promote the efficiency, effectiveness, and integrity of CPB initiatives and
     operation. Our core values are integrity (we produce fair, balanced, and credible work),
     excellence (doing our best and following professional standards), and collaboration (we
     value and seek input). Our three goals are to 1) provide timely and quality products that
     benefit CPB, 2) promote effective working relationships, and 3) promote OIG excellence.

     We also completed our new work plan, OIG FY 2014 Annual Plan, in which we describe
     the activities we intend to undertake in FY 2014 in support of each of our three goals. In
     addition to our planned audits and other reviews, we also identify the outreach we will do
     to foster effective working relationships and the training and support we will provide to our
     staff. We also set out our five performance measures that we will track to help us assess our
     productivity and impact. You may access our plans and peer review report on our website at
     http://www.cpb.org/oig/.

     I am honored to be selected for this position, and I look forward to continuing to work
     with Congress and the CPB Board and management to promote accountability in CPB
     initiatives and operations.




     Mary Mitchelson
     Inspector General




2                                                              APRIL 1, 2013 — SEPTEMBER 30, 2013
                   OIG Operations in the Current Period
    This table identifies the reports we issued this reporting period with related monetary findings and
    recommendations for corrective actions.


               Reports Issued for the Period Ending September 30, 2013
                                                                                             Number of
      Report Number/                                 Questioned   Unsupported Funds Put To
                                Report Title                                                 Recommen­
        Date Issued                                    Costs         Costs     Better Use
                                                                                               dations

     Audits:

                          Examination of Grants
                          Awarded to Radio
      ASR1303-1304,
                          Catskill, WJFF-FM,                $0            $0           $0        5
     September 12, 2013
                          Jeffersonville, New York
                          for Fiscal Year 2011

                          Audit of CPB Grants
                          Awarded to the Pacific
                          Islanders In Communi-
      APT1301-1305,
                          cations, Inc., Honolulu,    $568,521       $21,194     $138,400        5
     September 26, 2013
                          Hawaii for the Period
                          October 1, 2009 –
                          September 30, 2012

                          Audit of CPB Grant
                          Awarded to Youth Media
      APR1209-1306,
                          International for the       $121,439      $121,439           $0        4
     September 27, 2013
                          Period July 1, 2010 –
                          June 30, 2012

                          Examination of Com-
                          munity Service Grants
                          Awarded to New York
      ASR1302-1307,
                          Public Radio, WNYC-               $0            $0       $2,736        2
     September 27, 2013
                          FM, New York, New
                          York for the Period July
                          1, 2010 – June 30, 2012




Semiannual Report                                                                                         3
                            Audit & Assistance Activities
                                            Reports Issued
     We issued four audit/evaluation reports this pe-      riod had expired, $17,846 in unused program
     riod. You may access them on our website at           producer funds, and $3,348 in reporting oper-
     http://www.cpb.org/oig/reports/.                      ating costs in excess of the amounts recorded
                                                           in PIC’s accounting records);
     Audit of CPB Grants Awarded to the                 •	 claimed reimbursements from CPB in excess
     Pacific Islanders In Communications,                  of quarterly needs resulting in a surplus cash
     Inc., Honolulu, Hawaii for the Period                 on-hand balance of $715,008 as of September
                                                           30, 2012;
     October 1, 2009 – September 30, 2012,              •	 funds put to better use estimated at $114,293
     Audit Report No. APT1301-1305 (is­                    because CPB’s share of ancillary income and
     sued September 26, 2013)                              interest earnings were not reported to CPB;
                                                           and
       Pacific Islanders in Communications,             •	 funds put to better use totaling $24,117 for
       Inc. (PIC) is a member of the National              unused FY 2012 operating funds.
       Minority Consortia primarily funded by
       CPB, which collectively address the need         We recommended that CPB require PIC to:
       for ethnically and culturally diverse na-
       tional public broadcast programming.           •	 refund $547,327 in costs incurred after the
       We have previously reviewed three of the          grant period or amend the grant period term to
       five members of the Consortia. At PIC,            include these amounts;
       of the $4.5 million in CPB funds involved      •	 refund $17,846 of unused program funds paid
       in our audit period, we noted excess cash         to producers and include close out provisions
       on hand (which CPB addressed before               in all future agreements with program produc-
       the completion of our audit) and found            ers;
       questioned costs, underreporting of an-        •	 refund $3,348 in costs claimed in excess of
       cillary income, and unused operating              amounts shown on its accounting records;
       funds. In total, our audit identified more     •	 maintain cash-on-hand balances at the mini-
       than $700,000 of CPB funds that PIC               mum levels required by the grant agreement;
       had not handled in accordance with CPB            and
       requirements.                                  •	 report ancillary income and interest earned
                                                         in accordance with the grant agreement and
     The objectives of our audit were to determine       pay CPB the applicable portion of CPB’s
     whether: 1) financial reports fairly present CPB    share of ancillary income and interest totaling
     grant revenues and expenditures; 2) costs were      $114,293 or use these funds for future produc-
     incurred in accordance with grant requirements;     tions.
     and 3) PIC complied with applicable provisions
     of the Communications Act.                       We also recommended that CPB deobligate
                                                        $24,117 in unused operations funds, which CPB
     Based upon our audit we found:                     has done.

     •	 questioned costs totaling $568,521 ($547,327 In response to the draft report, PIC management
        for incurring program costs after the grant pe- agreed with our findings and stated that it takes


4                                                                 APRIL 1, 2013 — SEPTEMBER 30, 2013
    responsibility for the issues that we identified in    sonnel costs misclassified as personnel ser-
    our report and assured CPB that all of the funds       vices, direct costs misclassified as overhead
    received were used in accordance with PIC’s            costs, and reported costs that exceeded gen-
    mission. Further, PIC requested CPB to issue a         eral ledger totals;
    no-cost extension to amend the terms of the FY •	 $28,134 in questioned in-kind studio rental
    2010 grant instead of requiring PIC to repay the       costs because of the unreasonable rate used to
    funds committed after the grant term expired.          calculate rental charges; and
                                                        •	 the final financial report (FFR) did not report
    CPB’s management decision resolving our rec-
                                                           all revenues and expenditures incurred for the
    ommendations is due by March 25, 2014.
                                                           project in accordance with the grant agree-
                                                           ment and the Communications Act.

    Audit of CPB Grant Awarded to Youth                 Further, the grantee did not keep track of indi-
    Media International for the Period                  vidual employee time spent on the Turnstyle
    July 1, 2010 – June 30, 2012, Audit Re­             project. These conditions created a scope limi-
    port No. APR1209-1306 (issued Sep­                  tation, and we were not able to independently
    tember 27, 2013)                                    verify the reasonableness of employee time
                                                        charged to the project. We did not question
       Youth Media International (YMI) trains           personnel costs based on this scope limitation
       diverse youth in digital media and tech-         because of the programmatic accomplishments.
       nology. CPB awarded YMI almost $2                We did question personnel costs based on time
       million to transition from a broadcast           charged for higher salaried employees.
       model to Turnstyle, a new digital, media
       driven, multi-platform information ser-          We recommended that CPB:
       vice. In our audit of the Turnstyle grant,
       we found that YMI did not keep adequate          •	 recover questioned costs of $121,439;
       records to track individual employee time        •	 clarify in future agreements grant recordkeep-
       spent on the project or value the in-kind           ing requirements to facilitate an effective
       services it claimed. YMI also did not re-           audit (e.g., maintaining project time keeping
       port all revenues and expenses for the              records and valuing the reasonableness of in-
       project as required. We questioned more             kind costs); and
       than $100,000 of costs charged to the            •	 require YMI to submit a revised FFR account-
       Turnstyle grant.                                    ing for all project revenues and expenditures
                                                           in accordance with grant requirements.
    The objectives of our audit were to determine
    whether: 1) the financial report fairly presents   In response to these findings YMI officials dis-
    grant revenues and expenditures; and 2) costs      agreed with the questioned costs, stating that
    were incurred in accordance with grant require-    “[YMI] applied CPB’s support of Turnstyle in
    ments.                                             a manner that consistently met or exceeded the
                                                       requirements of the Turnstyle contract. [YMI]
    Based upon our audit we found:                     rigorously adhered to budget limits and spend-
                                                       ing classification requirements.” YMI further
    •	 $283,075 in questioned costs ($121,439 ap- stated that personnel costs matched salary
       plicable to CPB’s proportionate share of the amounts in the budget; contractors were occa-
       grant) relating to personnel services, non-per- sionally used in place of staff to meet deliver-


Semiannual Report                                                                                           5
     ables; costs for equipment and web streaming •	 did not fully comply with Communications
     were shared across the organization and there-   Act requirements to make information avail-
     fore correctly classified as overhead; and costs able to the public by providing: 1) written
     recorded in its general ledger exceeded amounts  statements explaining the reasons for closing
     reported for media and broadcast professionals   a public meeting, and 2) other CPB non-CSG
     and overhead categories.                         grant financial reports.
     CPB’s management decision resolving our rec- We recommended that CPB management re-
     ommendations is due by March 26, 2014.
                                                  quire NYPR to:

                                                         •	 refund CSG overpayments of $2,736;
     Examination of Community Service •	 file a corrected AFR for FY 2011;
     Grants Awarded to New York Public •	 make available to the public the reasons for
     Radio, WNYC-FM, New York, New           closing board/committee meetings and other
     York for the Period July 1, 2010 – June CPB grant financial reports; and
     30, 2012, Report No. ASR1302-1307 •	 submit revised Communications Act policies
                                             to CPB for review and approval.
     (issued September 27, 2013)
                                                         In response to these findings and recommenda-
       New York Public Radio (NYPR) operates             tions, NYPR officials agreed to take corrective
       three radio stations in New York City and         actions.
       four stations in New Jersey. During our
       2-year audit period NYPR received the             CPB’s management decision resolving our rec-
       largest CPB Community Service Grant               ommendations is due by March 26, 2014.
       (CSG) awards at $6.4 million. Our audit
       found that NYPR had overstated its Non-
       Federal Financial Support (NFFS),            Examination of Grants Awarded to
       which should result in a small repayment     Radio Catskill, WJFF-FM, Jefferson­
       to CPB, and it did not fully comply with
       Communications Act requirements.
                                                    ville, New York for Fiscal Year 2011,
                                                    Report No. ASR1303-1304 (issued
     The objectives of this examination were to de- September 12, 2013)
     termine whether NYPR: a) claimed NFFS on
                                                           WJFF is a small radio station in New
     its annual financial reports (AFR) in accordance
                                                           York with recent turnover in manage-
     with CPB financial reporting guidelines; b) ex-
                                                           ment. After receiving allegations that the
     pended CSG funds in accordance with grant
                                                           station was not in compliance with Com-
     agreement requirements; and c) complied with
                                                           munications Act requirements, including
     the certification of eligibility requirements and
                                                           an inquiry from a Member of Congress,
     the statutory provisions of the Communications
                                                           we initiated this audit, which confirmed
     Act.
                                                           the lack of compliance. During our au-
                                                           dit period WJFF received approximately
     Our examination found that NYPR:
                                                           $90,000 in CPB grant funds.
     •	 over-stated NFFS by $44,574 in FY 2011,          The objectives of this examination were to de-
        which resulted in a CSG overpayment of           termine whether WJFF: a) claimed NFFS on
        $2,736 in FY 2013; and                           its financial summary report in accordance with


6                                                                  APRIL 1, 2013 — SEPTEMBER 30, 2013
    CPB Guidelines; b) complied with the certifica- cations Act requirements and provide CPB with
    tion of eligibility requirements and the statutory documentation of its compliance, to include:
    provisions of the Communications Act; and c)
    expended CSG funds in accordance with grant •	 quarterly on-air announcements of the sta-
    agreement requirements.                               tion’s open meeting policy;
                                                       •	 announce upcoming public meetings seven
    During our examination we determined that
                                                          days in advance of the meeting;
    WJFF claimed NFFS in accordance with CPB
                                                       •	 establish written policies explaining how
    Guidelines; however, WJFF did not fully com-
                                                          the station complies with Communications
    ply with the Communications Act or CSG re-
                                                          Act requirements; and
    quirements. Specifically, WJFF did not:
                                                       •	 prepare a written statement explaining the
    •	 comply with the requirement to make quarter-       reasons for closing a public meeting and
       ly on-air announcements of its open meetings       make it available to the public.
       policy;
    •	 have evidence that open meeting announce- We also recommended that CPB penalize WJFF
       ments for the Community Advisory Board for not taking appropriate corrective actions to
       (CAB), Board of Trustees, or the committees address all requirements after being instructed
       of the Board of Trustees were made seven or to do so by CPB in November of 2011.
       more days prior to the meetings;
    •	 maintain records of CAB members attendance In response to the draft report, WJFF manage-
       at public meetings;                             ment agreed with our findings on Communi-
    •	 always provide written statements explaining cations Act compliance and stated that it had
       the reasons for closing a meeting to the pub- initiated corrective actions to address those
       lic; and                                        issues. Further, WJFF requested CPB to re-
    •	 prepare written implementing policies on frain from penalizing the station for not com-
       open meetings, open financial records, CAB, plying with these requirements. WJFF stated
       equal employment opportunity, or donor list that its new Board of Trustees and manage-
       and political activities requirements of the ment are committed to bringing the station
       Communications Act.                             into full compliance with CPB requirements.

    We recommended that CPB management re-              CPB’s management decision resolving our
    quire WJFF to fully comply with all Communi-        recommendations is due by March 11, 2014.



                                           Peer Review
    CPB OIG Peer Review

    The Library of Congress, Office of Inspector General, conducted a peer review of our system of audit qual-
    ity control for the year ending March 31, 2013. Its report, dated September 27, 2013, concluded that our
    system of quality control has been suitably designed and complied with to provide CPB OIG with reason-
    able assurance of performing and reporting in conformity with applicable professional auditing standards.
    There were no recommendations made in the peer review report or any carryover recommendations from
    prior peer reviews. The peer review report is available on our website at http://www/cpb.org/oig/reports/
    OIGPeerReview.pdf.


Semiannual Report                                                                                               7
                         Resolution of Recommendations
     The following table summarizes the resolution activities for all audit and assistance reports issued
     by our office. This table includes reports that contain monetary and non-monetary findings with
     related recommendations.



                                  Reports Requiring Resolution

                                                                             Total
                                            Number
                                              of         Questioned      Unsupported      Funds Put to
                 Description                Reports        Costs            Costs          Better Use

      Reports for which no
      management decision had been
      made by the start of the reporting
      period.                                   6           $285,760         $285,760        $275,519

      Reports issued during the
      reporting period.                         4           $689,960         $142,633        $141,136

          Subtotals                             10          $975,720         $428,393        $416,655

      Reports for which a management
      decision had been made during
      the reporting period:                     6

        • Dollar value of
           recommendations agreed to
           by management                                     $65,779          $65,779        $269,800

        • D
           ollar value of
          recommendations not agreed
          to by management                                  $219,981         $219,981           $5,719

      Reports with no management
      decision at the end of the
      reporting period.                         4           $689,960         $142,633        $141,136




8                                                                 APRIL 1, 2013 — SEPTEMBER 30, 2013
                                 Investigative Activities
    The IG Act requires OIG to receive and inves-       an issue that had been reported in a prior au-
    tigate complaints or allegations involving po-      dit report. We took no action concerning that
    tential violations of law, rules or regulations,    complaint, because the subject matter is one on
    mismanagement, gross waste of funds, or abuse       which we are awaiting documentation that CPB
    of authority. We receive allegations through        has completed corrective action.
    a variety of means, including our hot­line. We
    review all allegations to determine whether the   During this reporting period, we received 24
    complaint should be the subject of an audit,      complaints. A total of eight were closed after
    evaluation, or investigation. Because we do not   preliminary review, because we lacked author-
    employ criminal investigators, when we receive    ity to look into the allegation, the complaint
    an allegation of a criminal violation, we either  lacked specificity, or the complainant was un-
    refer it to the Federal Bureau of Investigation   able to provide evidence. We provided infor-
    or other appropriate law enforcement agencies,    mation to six complainants that was publicly
    or we arrange for investigative assistance from   available from other sources and closed their
    another OIG. We may refer the results of inves-   complaints. We referred one complainant to the
    tigations to appropriate federal, state, or local CPB Ombudsman and six complaints to other
    prosecuting authorities for action.               offices within CPB. At the close of the reporting
                                                      period, three complaints were open, because we
      Allegations and Hotline Complaints are seeking additional information from CPB,
    In the previous semiannual report, we reported outside sources, or are otherwise reviewing the
    that we had eight open complaints. Those in- allegations presented.
    volved various allegations that public television
                                                                      Investigations
    and radio stations did not comply with the Com-
    munications Act requirements (e.g., open finan- During this reporting period, we closed the one
    cial records, CABs, and donor lists), as well as investigation previously reported as open. The
    other allegations of mismanagement or abuse of investigation was unable to identify a respon-
    CPB funds.                                        sible individual and no additional investigative
                                                      steps were appropriate.
    All eight of the complaints open from the pre-
    vious reporting period were closed during this              Congressional Matters
    period. Of three complaints considered for po- During this reporting period, we issued respons-
    tential audits, we initiated and completed one es to four Congressional requests. Two of the
    audit. We referred two complaints to the CPB requests were inquiries on behalf of constituents,
    Ombudsman, who examined the allegations and one of which resulted in an audit. Two other Con-
    issued reports posted on its website. We closed gressional requests were committee requests that
    one allegation, because it was not within our were issued to all offices in the Inspector General
    or CPB’s authority. One complaint was from a community, and we responded with timely and
    Member of Congress on behalf of a constituent; appropriate information. We also solicited input
    we reviewed the issues presented and respond- for our annual plan from members of pertinent
    ed to the Member. One complaint concerned Congressional committees.



Semiannual Report                                                                                        9
      CPB AUDIT RESOLUTION ACTIVITIES




10                       APRIL 1, 2013 — SEPTEMBER 30, 2013
        Message from Chief Financial Officer and Treasurer
        September 30, 2013

        CPB and OIG staffs continue to work cooperatively to discuss and resolve report find-
        ings and recommendations. Generally, corrective actions have been completed or are
        proceeding according to agreed-upon schedules. Some resolutions have taken longer
        than desired and recent modifications in internal procedures are being implemented to
        improve the timeliness of CPB responses.

        With our commitment to continuous improvement, enhancements to CPB internal con-
        trols, processes and procedures are always a priority. In this regard, the CPB staff and the
        OIG are working together with our grantees to strengthen procedures and controls over
        station grants, contracts and CPB assets.




        William P. Tayman, Jr.
        Chief Financial Officer and Treasurer




Semiannual Report                                                                                     11
                         Recovering Disallowed Costs and
                             Funds Put to Better Use
      During this reporting period CPB management issued five management decisions that contained
      findings with questioned costs. Further details concerning the status of on-going recovery efforts
      are discussed under the section titled Corrective Action Not Completed Within One Year of a Man-
      agement Decision, on page 13.



             Reports with Disallowed Costs or Funds Put to Better Use

                                                Number
                                                  of         Dollar Value of     Dollar Value Funds
                    Description                 Reports     Disallowed Costs      Put to Better Use

        Reports with management decisions
        for which final action had not been
        completed by the start of the report-
        ing period.                                 6                $409,602            $1,055,738

        Reports for which management
        decisions were made during the
        reporting period.                           2                 $65,779              $269,800

        Subtotal                                    8                $475,381            $1,325,538

        Reports for which final action was
        taken during the reporting period.          0

        • D
           ollar value of disallowed costs
          that have been recovered through
          collection or offset.                                            $0                $25,000

        • D
           ollar value of disallowed costs
          written off as uncollectible.                                    $0                     $0

        Reports for which final actions were
        not completed by the end of the
        reporting period.                           8                $475,381             $1,300,538




12                                                                APRIL 1, 2013 — SEPTEMBER 30, 2013
               Corrective Actions Not Completed Within
                 One Year of a Management Decision
    At the end of the reporting period there were two reports with monetary corrective actions that had
    not been completed within one year of the management decision date. Additionally, there are five
    other reports with significant administrative corrective actions that have not been completed within
    one year of the management decision date. CPB officials have established new completion dates
    for addressing these administrative corrective actions.

    Monetary collection actions are in process in accordance with CPB’s approved grant offset sched-
    ule for two audits.




       On-Going Monetary Collection Actions as of September 30, 2013

                                                                                      Fiscal Year
                                                    Date            Date           Corrective Action
       Report No.          Report Title            Issued          Resolved        to be Completed

      ASJ802-805       Community Service       Sept. 26, 2008    July 29, 2009        FY 2014 (1)
                       Grants Awarded to
                       WGBH Educational
                       Foundation

     ASJ1102-1201      Audit of CPB            Dec. 12, 2011     July 9, 2012         FY 2017 (2)
                       Grants Awarded to
                       WQED Multimedia




    (1)	CPB began recovering $1,339,477 from WGBH during FY 2010. It will deduct $267,895
         from WGBH’s annual CSG for five years.

    (2)	CPB will begin recovering $759,332 in FY 2013. It will deduct $151,867 from WQED’s
         annual CSG for five years.




Semiannual Report                                                                                         13
      Significant Unimplemented Administrative Corrective
                 Actions as of September 30, 2013
                                                                                          Fiscal Year
                                                                                      Corrective Action to
       Report No.         Report Title          Date Issued        Date Resolved        be Completed
      APR806-904              KBCS            March 27, 2009        June 24, 2009      December 31, 2013
      APT502-704             WETA             March 30, 2007        June 25, 2010      December 31, 2013
      AST702-802             WNET             March 31, 2008        June 25, 2010      December 31, 2013
      APT807-202             WGBH              Feb. 17, 2009        June 25, 2010      December 31, 2013
                  Station Survey
                  Compliance with
      ECJ905-1105 Accounting &                March 31, 2011 August 30, 2011             October 1, 2014
                  Communications
                  Act Requirements




      The above referenced reports contained unimplemented administrative corrective actions that represent
      significant policy issues regarding claiming indirect costs and auditing compliance with Communica-
      tions Act requirements.

                                            Indirect Cost Policy
      Four station reports recommended that CPB establish a policy for claiming indirect costs under CPB
      grant agreements. CPB undertook extensive discussions with national public broadcasting producers
      in order to develop a consensus of opinion around guidelines that would be fair and equitable to both
      producers and CPB. Discussions among the parties have focused on what costs should be included in
      the indirect costs, as well as how to apply indirect costs to program acquisition and subcontractor costs.
      CPB is currently working on resolving internal differences. CPB expects to complete this process and
      to implement its policy no later than January 2014.


                   Auditing Requirements with the Communications Act
      Our survey report recommended expanding the independent public accountant’s attestation testing to
      verify compliance with the Communications Act requirements. To accomplish this CPB, is updating
      the financial reporting guidelines and developing a communications plan to notify all grantees of the
      new requirements. CPB expects these new procedures will be implemented by October 2014.



14                                                                     APRIL 1, 2013 — SEPTEMBER 30, 2013
                                    CONTACT CPB/OIG
    If you have information about fraud, waste, or abuse involving CPB funds, initiatives, or operations,
    please call, fax, write, or e-mail the Office of Inspector General or file a complaint through our
    website. Your report may be made anonymously or in confidence.



                           Call:	    Inspector General Hotline, 202-879-9728 or 800-599-2170


                           Fax:	     202-879-9699


                           Email: 	 oigemail@cpb.org


                           Write:	   Inspector General Hotline
                           	         401 Ninth Street, NW
                           	         Washington, DC 20004-2129


                           Website: 	www.cpb.org/oig/contact.php




Semiannual Report                                                                                          15
      401 Ninth Street, NW
      Washington, DC 20004
      (202) 879-9600
      www.cpb.org/oig
16                          APRIL 1, 2013 — SEPTEMBER 30, 2013
